                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
October 16, 2009

Report Number: A-07-09-02757

Ms. Sandra L. Coston
President and Chief Executive Officer
First Coast Service Options, Inc.
532 Riverside Avenue
Jacksonville, Florida 33202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Geographic Classification of Hospital Cayetano
Coll y Toste for Medicare Operating Disproportionate Share Hospital Payment.” We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-09-02757 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandra L. Coston

Direct Reply to HHS Action Official:

Mr. Jonathan Blum
Acting Director
Centers for Drug and Health Plan Choice
Centers for Medicare & Medicaid Services
200 Independence Avenue, SW
314-G, HHH Building
Washington, DC 20201
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL


   REVIEW OF GEOGRAPHIC
 CLASSIFICATION OF HOSPITAL
 CAYETANO COLL Y TOSTE FOR
    MEDICARE OPERATING
  DISPROPORTIONATE SHARE
     HOSPITAL PAYMENT




                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-07-09-02757
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 or older, people under age 65 with certain disabilities, and people of
all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a kidney
transplant). The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. (Section 911 of the Medicare Prescription Drug,
Improvement, and Modernization Act of 2003 requires CMS to transfer the functions of fiscal
intermediaries to MACs by October 2011.) Each cost report is based on the hospital’s financial
and statistical records, and the hospital attests to the accuracy of the data when submitting its
cost report. After acceptance of the cost report, the fiscal intermediary performs a tentative
settlement. Before making final settlement, the fiscal intermediary reviews the cost report and, if
necessary, conducts an audit. The fiscal intermediary then issues a notice of program
reimbursement. As the final settlement document, the notice of program reimbursement shows
whether the Medicare program owes the hospital or the hospital owes the Medicare program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Hospital Cayetano Coll y Toste (the Hospital) is a 210 bed, acute-care hospital located in
Arecibo, Puerto Rico. The Hospital claimed an operating DSH adjustment of $1,087,360 on its
cost report for the fiscal year ending December 31, 2003.

For the cost report reviewed, the Hospital’s fiscal intermediary was Cooperativa de Seguros de
Vida de Puerto Rico (COSVI). However, in keeping with the provisions of the Medicare
Prescription Drug, Improvement, and Modernization Act of 2003, First Coast Service Options,
Inc., (FCSO) became the Hospital’s MAC effective March 1, 2009, thereby assuming the fiscal
intermediary functions and responsibilities formerly discharged by COSVI. Accordingly, we are
issuing our report to FCSO.

FCSO is based in Jacksonville, Florida, and currently serves as the MAC for hospitals in Puerto
Rico, the U.S. Virgin Islands and Florida.

OBJECTIVE

Our objective was to determine whether the geographic classifications used by COSVI to
calculate the Medicare operating DSH adjustment resulted in an overpayment.



                                               i
SUMMARY OF FINDINGS

Geographic classifications used by COSVI to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $1,087,360 that
the Hospital claimed on its cost report for the fiscal year ending December 31, 2003, $581,723
was excessive because COSVI calculated the operating DSH adjustment as if the Hospital was
urban for the entire cost report period. However, the Hospital was rural for the entire cost report
period. This resulted in an operating DSH overpayment of $581,723.

This overpayment occurred because COSVI’s controls did not always ensure that hospitals
received Medicare operating DSH adjustments based upon the correct geographic classification.

RECOMMENDATION

We recommend that FCSO recover the $581,723 in Medicare operating DSH overpayment from
the Hospital.

FIRST COAST SERVICE OPTIONS, INC., COMMENTS

In written comments on our draft report, FCSO did not directly address our finding or
recommendation but stated that it has reopened the Hospital’s December 31, 2003, cost report
and will take appropriate action to recover the overpayment. FCSO’s comments appear in their
entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope....................................................................................................................2
               Methodology ........................................................................................................2

FINDINGS AND RECOMMENDATION...............................................................................3

          FEDERAL REQUIREMENTS........................................................................................3

          OVERPAYMENT RECEIVED...................................................................................... 3

          RECOMMENDATION ...................................................................................................4

          FIRST COAST SERVICE OPTIONS, INC., COMMENTS ..........................................4

APPENDIX

          FIRST COAST SERVICE OPTIONS, INC., COMMENTS




                                                                    iii
                                           INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people age 65 or older, people under age 65 with certain disabilities, and
people of all ages with end-stage renal disease (permanent kidney failure requiring dialysis or a
kidney transplant). The Centers for Medicare & Medicaid Services (CMS) administers the
program.

Medicare hospitals submit cost reports to their Medicare fiscal intermediaries or Medicare
administrative contractors (MAC) annually. 1 Each cost report is based on the hospital’s
financial and statistical records, and the hospital attests to the accuracy of the data when
submitting its cost report. After acceptance of the cost report, the fiscal intermediary performs a
tentative settlement. Before making final settlement, the fiscal intermediary reviews the cost
report and, if necessary, conducts an audit. The fiscal intermediary then issues a notice of
program reimbursement. As the final settlement document, the notice of program reimbursement
shows whether the Medicare program owes the hospital or the hospital owes the Medicare
program.

The cost report is used to report various Medicare payments, including an operating
disproportionate share hospital (operating DSH) payment if a hospital is deemed eligible for
reimbursement of operating costs because it treats a disproportionate share of low-income
patients. Medicare fiscal intermediaries or MACs make determinations, based on Federal
regulations, as to whether a hospital qualifies for a Medicare operating DSH payment and the
size of the payment. These determinations depend on numerous factors, including whether the
hospital is in an urban area or a rural area.

Hospital Cayetano Coll y Toste (the Hospital) is a 210 bed, acute-care hospital located in
Arecibo, Puerto Rico. The Hospital claimed an operating DSH adjustment of $1,087,360 on its
cost report for the fiscal year ending December 31, 2003.

For the cost report reviewed, the Hospital’s fiscal intermediary was Cooperativa de Seguros de
Vida de Puerto Rico (COSVI). However, in keeping with the provisions of the Medicare
Prescription Drug, Improvement, and Modernization Act of 2003, First Coast Service Options,
Inc., (FCSO) became the Hospital’s MAC effective March 1, 2009, thereby assuming the fiscal
intermediary functions and responsibilities formerly discharged by COSVI. Accordingly, we are
issuing our report to FCSO.

FCSO is based in Jacksonville, Florida, and currently serves as the MAC for hospitals in Puerto
Rico, the U.S. Virgin Islands and Florida.




1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to MACs by October 2011.


                                                      1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the geographic classifications used by COSVI to
calculate the Medicare operating DSH adjustment resulted in an overpayment.

Scope

We reviewed the $1,087,360 Medicare operating DSH adjustment claimed on the Hospital’s cost
report for the fiscal year ending December 31, 2003.

We did not verify the accuracy of the factors in the Medicare operating DSH computation, other
than to verify the accuracy of the geographic classification of the hospital.

We conducted our audit from June through December 2008.

Methodology

To accomplish our objective, we did the following:

       We reviewed applicable Federal laws and regulations.

       We interviewed CMS officials to gain an understanding of how Medicare operating DSH
        payments are calculated.

       We obtained all cost reports from the Healthcare Cost Report Information System 2 for
        acute-care inpatient hospitals whose cost reporting periods ended in calendar years 2003
        through 2006 as of March 31, 2007.

       We determined the geographic classification for all hospitals using data from the most
        recent U.S. Census to identify whether particular hospitals were geographically classified
        as rural or urban during our audit period. We then accounted for reclassifications done
        by the Medicare Geographic Classification Review Board and “Lugar” reclassifications
        (discussed below) in accordance with Section 1886(d)(8)(B) of the Act.

       We used the cost report data to recalculate the operating DSH payments based upon these
        geographic classifications to identify any hospitals that may have received an
        overpayment due to using an incorrect geographic classification. As a result of this
        process, we selected the Hospital’s cost report for the fiscal year ending
        December 31, 2003, for further review.



2
 The Healthcare Cost Report Information System is a national database containing financial and statistical
information extracted from hospital cost reports.


                                                         2
      We contacted COSVI and confirmed, for the applicable Federal fiscal years, how the
       Hospital was geographically classified and determined how COSVI calculated the
       operating DSH adjustment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                           FINDINGS AND RECOMMENDATION

Geographic classifications used by COSVI to calculate the Medicare operating DSH adjustment
resulted in an overpayment at one hospital. Of the operating DSH adjustment of $1,087,360 that
the Hospital claimed on its cost report for the fiscal year ending December 31, 2003, $581,723
was excessive because COSVI calculated the operating DSH adjustment as if the Hospital was
urban for the entire cost report period. However, the Hospital was rural for the entire cost report
period. This resulted in an operating DSH overpayment of $581,723.

FEDERAL REQUIREMENTS

Pursuant to 42 CFR § 412.106, hospitals that serve a disproportionate number of low-income
patients may receive an additional Medicare operating DSH payment. Determinations as to
whether a hospital qualifies for a Medicare operating DSH payment and the size of the payment
depend in part on whether the hospital is in an urban area or a rural area.

The geographic classifications used to determine whether the hospital is in an urban area or a
rural area are based upon the definitions in 42 CFR §§ 412.62(f) or 412.64, which generally
identify an urban area as a metropolitan statistical area as defined by the Office of Management
and Budget (OMB). On June 6, 2003, OMB began classifying geographic areas using the core-
based statistical areas identified on the decennial census conducted in 2000. CMS deferred
implementation of these classifications until October 1, 2004.

A hospital’s geographic classification can be reclassified by the Medicare Geographic
Classification Review Board through an application process in accordance with 42 CFR
§ 412.230. A hospital’s geographic classification can also be deemed urban if that
hospital meets certain criteria based on residents’ commuting patterns and population density.
These “Lugar” hospitals are located in rural counties and have been reclassified as urban under
§ 1886(d)(8)(B) of the Act.

OVERPAYMENT RECEIVED

The Hospital claimed an operating DSH overpayment of $581,723 because COSVI incorrectly
calculated the operating DSH adjustment as if the Hospital was urban for the entire cost report
period. However, the Hospital was rural for the entire cost report period, and COSVI should
have calculated the operating DSH adjustment accordingly.



                                                 3
This overpayment occurred because COSVI’s controls did not always ensure that hospitals
received Medicare operating DSH adjustments based upon the correct geographic classification.

RECOMMENDATION

We recommend that FCSO recover the $581,723 in Medicare operating DSH overpayment from
the Hospital.

FIRST COAST SERVICE OPTIONS, INC., COMMENTS

In written comments on our draft report, FCSO did not directly address our finding or
recommendation but stated that it has reopened the Hospital’s December 31, 2003, cost report
and will take appropriate action to recover the overpayment. FCSO’s comments appear in their
entirety as the Appendix.




                                              4
APPENDIX
                          APPENDIX: AUDITEE COMMENTS 





                                                                                                   Sandy CcKtO<1
                                                                                                 CEO" P,Qidenl
                                                                                    Fir$! Coa.S1 SeMel 0\:llI0nI. Inc.
                                                                                           SaMy.CostonOk:so.com

September 1, 2009


Patrick J. Cogley
Regional Inspector Gerleral for Audit Services
Region VII
601 East 12'" Slreel, Room 0429
Kansas City, Missouri 64106

Subject: Rapon A.Q7·09-02757


Dear Mr. Cogley:

This is In response 10 the draft audH report issued 10 First Coast SeMce Options, Inc. (FCSO) enlllled "Review 01
Geographic Class~ical ion o! Hospital Cayetano Coil y Tosle for Medicare Operating Qispropo1ionale Share 

Hosp~ al Pa'P'1em" (OSH). FeSO's response 10 the finding and recommendation in 1he report Is as follows: 



FINDING : 

Geographic classilicalions used by COSVI IO caiculale lhe Medi<:are operating aSH adjustment resul1ed in an 

overpayment of $581,723. The Hospital claimed costs for the Hscal year ending December 31,2003 as (Ulal 

when ~ was uman lor 1M entire cost report period. 


RECOMMENDATION: 

W e recommend thaI FeSO recover lhe $581.723 in Medicare operating DSH overpayment Irom the Hospital. 


RESPONSE :                                                  .

FCSO reopened Hospital Cayetano con y Toste's December 31. 2003 Medicare cost report and will take 

appropriate action to recover the OIIerpayment. 


Thank you lor the opportunity to comment on the draft lepon. Please contact Gro9 England at 904·79HI364 il 

you have any questions or need add~ional inloonation . 



Sincerely,


 j    4/lJIv.-          X. ('~-/vr-.
Sandra L Coston




!>32 IWersido A _. JacI<sonviUe. FIorIaa 32202
P.O. 90. 45214 .~. F\I:n)o 32234·!;V4 

Tel: 1104'191-340\1 

Fa", 1I04-36I-03n 

www.k:so .ccm 

